U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Medical Ass’n, et al. v. Becerra, et al., No. 20-429
Becerra, et al. v. Mayor & City Council of Baltimore, No. 20-454
Oregon, et al. v. Becerra, et al., No. 20-539

Dear Mr. Harris:
The Court granted writs of certiorari in the above-captioned cases on February 22, 2021,
and consolidated the cases for briefing and oral argument. On March 8 and 12, 2021, respectively,
two groups of proposed intervenors filed motions to intervene in this Court. On March 12, 2021,
the parties jointly stipulated to dismiss the cases pursuant to Rule 46.1. On April 1, 2021, the
Court granted the respective petitioners’ requests to extend the time to file their opening briefs to
May 6, 2021. On April 26, 2021, the Court issued an order directing the filing of a letter brief by
the government by May 3, 2021, with any responses by the non-federal parties and proposed
intervenors due by May 10, 2021. Due to the pendency of the parties’ joint stipulations to dismiss
and the Court’s order regarding letter briefs, all petitioners respectfully request, under Rule 30.4
of the Rules of this Court, an extension to and including June 3, 2021, within which to file their
opening briefs and a joint appendix. I am authorized to state that all petitioners join in this request
and that all respondents consent to this request.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0429
AMERICAN MEDICAL ASSN., ET AL.
XAVIER BECERRA, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
BENJAMIN M. FLOWERS
OHIO ATTORNEY GENERAL DAVE YOST
30 E. BROAD ST.
17TH FL.
COLUMBUS, OH 43215
614-466-8980
BFLOWERS@OHIOATTORNEYGENERAL.GOV
NOAH GUZZO PURCELL
SOLICITOR GENERAL
1125 WASHINGTON STREET SE
PO BOX 40100
OLYMPIA, WA 98504-0100
360-753-6200
NOAH.PURCELL@ATG.WA.GOV
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV

PAUL REINHERZ QUITMAN WOLFSON
WILMER CUTLER PICKERING HALE AND
DORR, LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6390
PAUL.WOLFSON@WILMERHALE.COM

20-0454
BECERRA, XAVIER, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
DREW A. HARKER
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVENUE, NW
WASHNIGTON, DC 20001
202-942-5022
DREW.HARKER@ARNOLDPORTER.COM
DANA PETERSEN MOORE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
BALTIMORE, MD 21212
410-396-3659
LAW.DANAPMOORE@BALTIMORECITY.GOV
SUZANNE SANGREE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
ROOM 156
BALTIMORE, MD 21212
443-388-2190
SUZANNE.SANGREE2@BALTIMORECITY.GO
V

PRISCILLA JOYCE SMITH
YALE LAW SCHOOL INFORMATION SOCIETY
PROJECT
319 STERLING PLACE
BROOKLYN, NY 11238
718-399-9241
PRISCILLA.SMITH@YALE.EDU
FAREN M. TANG
YALE LAW SCHOOL
127 WALL STREET
NEW HAVEN , CT 06511
203-432-1082
FAREN.TANG@YLSCLINICS.ORG
STEPHANIE TOTI
LAWYERING PROJECT
25 BROADWAY
9TH FLOOR
NEW YORK, NY 10004
516-967-4110
STOTI@LAWYERINGPROJECT.ORG
ANDREW TUTT
ARNOLD & PORTER
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001-3743
202-942-5242
ANDREW.TUTT@ARNOLDPORTER.COM

20-0539
OREGON, ET AL.
XAVIER BECERRA, SEC. OF HEALTH & HUMAN
SERVICES, ET AL.

BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV

